No. 19-765

 

In THE
Supreme Court of the United States

MICHAEL FAUST, in his official capacity as
Director of the Arizona Department of Child Safety,

Petitioner,
¥..

B.K., by her next friend Margaret Tinsley,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

REPLY BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,984 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 4, 2020.

 

Wilson-Epes Printing Co., Inc.
